Report No. DODIG-2012-009                 October 31, 2011




     DoD Complied With Policies on Converting Senior
    Mentors to Highly Qualified Experts, but Few Senior
                    Mentors Converted
Additional Copies  
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits 
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations 
AFAA                          Air Force Audit Agency
AAA                           Army Audit Agency
HQE                           Highly Qualified Expert
OGE                           Office of Government Ethics
SES                           Senior Executive Service
U.S.C.                        United States Code
USJFCOM                       U.S. Joint Forces Command
USMC                          U.S. Marine Corps
USSOCOM                       U.S. Special Operations Command
USSTRATCOM                    U.S. Strategic Command
                                             INSPECTOR GENERAL
                                          DEPARTMENT OF DEFENSE
                                           400 ARMY NAVY DRIVE
                                      ARLINGTON, VIRGINIA 22202-4704



                                                                                                  October 31, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS

SUBJECT: DoD Complied With Policies on Convet1ing Senior Mentors'to Highly Qualified
         Experts, but Few Senior Mentors Converted (RepOt1 No. DODIG-2012-009)

We are providing this report for your information and use. The Secretary of Defense issued a
policy memorandum on April 1, 2010, to ensure consistency and transparency in the DoD senior
mentor program. The policy required DoD to hire all senior mentors as highly qualified expet1s
(HQEs) by June 30, 2010, to the maximum extent possible. The DoD Office ofInspector
General performed an audit of the DoD conversion of senior mentors to HQEs in response to a
mandate in the explanatory statement for the Fiscal Year 2010 Defense Appropriations Act.

AUDIT OBJECTIVE

Our objective was to determine whether DoD implemented and complied with the Secretaty of
Defense memorandum, "Policy on Senior Mentors," April 1, 2010. Specifically, we determined
whether DoD properly convet1ed senior mentors to HQEs and consistently implemented the
Secretaty of Defense senior mentor policies. We reviewed the Navy, U.S. Marine COlpS
(USMC), and selected Combatant Commands controls for implementing and complying with
DoD policies for converting senior mentors to HQEs. We did not review the Departments of the
Army and Air Force because their respective audit agencies were performing these reviews.

RESULTS SUMMARY

Navy, USMC, U.S. Joint Forces Command (USJFCOM), U.S. Special Operations Command
(USSOCOM), and U.S. Stt'ategic Command (USSTRATCOM) officials.complied with DoD
policies for convet1ing senior mentors to HQEs. As ofFebruaty 28, 2011, 11 of the 194 reported
senior mentors for FY 201 0 converted to HQEs. The other 183 senior mentors did not convet1 to
HQEs and are no longer working as senior mentors. Seven of the 11 HQEs have since resigned.
The other four HQEs properly convet1ed within the appropriate time frame and in accordance
with DoD policies.

BACKGROUND

The Secretary of Defense issued the April 2010 policy memorandum to ensure consistency and
transparency across DoD for its senior mentor program. The policy defines a, senior mentor as

         a retired flag, general or other military officer or senior retired civilian official who provides
         expert experience-based mentoring, teaching, training, advice, and recommendations to senior


                                                         1
            military officers, staffs and students as they participate in war games, war fighting courses,
            operational planning, operational exercises, and decision making exercises.

The policy states that the senior mentor program

            enhances the readiness of our Armed Forces across a wide range of strategic, operational, joint,
            functional, technical, managerial and developmental issues. The relevant prior service, joint
            force experience, and unique expertise of these senior consultants provide senior leadership with
            valuable insights and contribute to the continuous improvement of the Department’s operations.

Further, it states that

            it is important that DoD be able to secure the kind of specialized expertise required for these
            operational exercises. At the same time, it is imperative that the experts we hire be subject to
            certain ethics laws and regulations that apply to Federal employees to avoid any perception
            of impropriety.

The policy requires DoD to hire all senior mentors as HQEs under section 9903, title 5, 

United States Code, and it requires HQEs to comply with all applicable Federal personnel and 

ethics laws and regulations. In addition, the policy states that as a part-time Federal employee, 

an HQE may not divulge nonpublic information or participate in official matters that raise a 

financial conflict of interest. Further, HQEs are required to file a financial disclosure report. 

The policy requires that, to the maximum extent practicable, current senior mentors be converted 

to HQEs by June 30, 2010. 


In June 2010, we determined, based upon a data call, the number of senior mentors for FY 2010, 

using the Secretary of Defense April 1, 2010, definition of senior mentors. We determined that 

there were 355 senior mentors in FY 2010. See Attachment 1 for the number of senior mentors 

by DoD organization. After our data call, the Deputy Secretary of Defense issued the 

memorandum, “Implementation Guidance on Senior Mentor Policy,” July 8, 2010, which 

clarifies and specifically defines the terms used in the April 1, 2010, memorandum. For 

example, the July 2010 memorandum defines “other military officers” as retired officers at the 

0-6 rank. See Attachment 2 for the definitions of the terms used in the Deputy Secretary of 

Defense memorandum and other applicable guidance on senior mentors. 


In September 2010, the Office of Government Ethics (OGE) determined that senior mentor 

positions are of “equal classification” with positions required to file an SF-278, “Public Financial 

Disclosure Report,”1 such as active duty flag and general officers. On November 12, 2010, the 

Deputy Secretary of Defense issued a memorandum, “Revised Guidance on Senior Mentor 

Financial Disclosure Requirement,” which directed that senior mentor position descriptions be 

updated no later than 30 days from November 12, 2010, to reflect that filing an SF-278 is a 

condition of appointment, irrespective of an individual’s rate of pay or number of days 

reasonably expected to serve in a calendar year. HQEs had 30 days from the date of the updated 

position descriptions to file their SF-278. 




1
    As of December 17, 2010, OGE renamed the SF-278 as OGE-278.
                                                            2

SENIOR MENTORS CONVERTED TO HQES

Navy, USMC, USJFCOM, USSOCOM, and USSTRATCOM officials complied with DoD
policies for converting senior mentors to HQEs. As of February 28, 2011, 11 of the 194 senior
mentors converted to HQEs. The other 183 senior mentors did not convert to HQEs and are no
longer working as senior mentors. Seven of the 11 HQEs have since resigned. (See Table 1.)
The other four HQEs properly converted within the appropriate time frame and in accordance
with DoD policies.

                   Table 1. Status of Senior Mentors Reported for FY 2010
                   DoD              Number of      Converted Resigned After
               Organization      Senior Mentors     to HQEs       Converting
              Navy                      109             0              0
              USMC                      15              4              1
              USJFCOM                   53              7              6
              USSOCOM                    17             0              0
              USSTRATCOM                  0             0              0
               Total                   194             11              7

ACTIONS TAKEN BY DOD ORGANIZATIONS

The Navy, USMC, USJFCOM, USSOCOM, and USSTRATCOM took action to implement and
comply with DoD policies for converting senior mentors to HQEs.

Navy
According to the Navy official overseeing their senior mentor program, the Navy ceased
contracting for senior mentor services. Because of the number and location of the Navy
contracts, we did not review any of them. However, we requested and received certifications
signed by the responsible Navy contracting officers stating that senior mentors were not working
under any contracts.

United States Marine Corps
The USMC ceased contracting for senior mentor services by the approved September 30, 2010,
extension date.2 Our review of USMC contracts showed that the contracts expired by the
September 30, 2010, deadline, or the USMC deobligated funds on contracts that had senior
mentor services.

U.S. Joint Forces Command
USJFCOM ceased contracting for senior mentor services by the approved September 30, 2010,
extension date.2 In addition, the Navy Fleet Industrial Supply Center, Philadelphia,3 issued a

2
  The USMC and USJFCOM requested and received extensions of the June 30, 2010, deadline for converting senior 

mentor to HQEs. 

3
  The Navy is the contracting activity for USJFCOM. 

                                                      3

contract modification in January 2010 concerning existing USJFCOM contracts. The
modification required contractors to notify the contracting officer if they intend to use the
services of former or retired general officers, flag officers, or members of the Senior Executive
Service (SES) on a contract and/or task order. The contract modification also stated that the
contractor shall

         notify the contracting officer of the name of such individual including a description of the
         services such individual will be performing, the military branch from which the individual
         retired or separated, and their rank or SES position at time of separation. Such notification shall
         be provided in writing prior to performance of services under the contract and/or task order by
         such individual.

In addition, we reviewed 40 task orders associated with six contracts that USJFCOM identified
as previously having senior mentor work performed. Our review showed that for 36 of the task
orders, the performance period ended before September 30, 2010. We did not identify any senior
mentor work being performed on the remaining four task orders.

U.S. Special Operations Command
USSOCOM contracting officials conducted a review of their contract files and determined that
they did not have any senior mentors under contract. USSOCOM contracting officials provided
a list of 5 contracts and the 48 task orders associated with these contracts that had general
officers, flag officers, or SES members under contract. We selected a nonstatistical sample of 20
task orders from these 5 contracts based on those that would most likely have senior mentor
work being performed. For example, we selected the task orders that were for conducting
operational exercises and training. Our review of the 20 task orders did not identify any senior
mentors working on these contracts.

U.S. Strategic Command
USSTRATCOM issued Strategic Command Instruction 941-02, “U.S. STRATCOM Senior
Mentor Management Program,” June 30, 2010, which institutionalizes the Secretary of Defense
policies for hiring senior mentors and establishes a process for contracting for the services of
retired general officers, flag officers, or SES members. The Strategic Command Instruction
states that USSTRATCOM must be able to secure the kind of premier expertise required for
operational mission requirements and exercises. At the same time, experts hired are subject to
similar ethics laws and regulations that apply to full-time Federal employees to avoid the
perception of impropriety.

REASONS SENIOR MENTORS DID NOT CONVERT TO HIGHLY
QUALIFIED EXPERTS

Navy, USMC, USJFCOM, USSOCOM, and USSTRATCOM officials stated that there were
various reasons why senior mentors did not convert to, or resigned as, HQEs, including:

      the requirement to file a public financial disclosure report,
      the possibility of limited basic and supplemental pay, and
      the potential for limited employment opportunities in the private sector.

                                                        4

Public Financial Disclosure. According to senior officials at several activities we visited, some
senior mentors did not convert to HQEs because of the requirement to file public financial
disclosure reports. On September 29, 2010, OGE issued a determination that all senior mentor
positions were of “equal classification” with positions required to file SFs-278 (now OGE-278).
On November 12, 2010, the Deputy Secretary of Defense issued a memorandum, “Revised
Guidance on Senior Mentor Financial Disclosure Requirement,” establishing that filing the
SF-278 was a condition of employment.

Limited Pay. Senior officials at several activities we visited stated that some senior mentors did
not convert to HQEs because the new policy limited senior mentor pay. Specifically, the
Secretary of Defense memorandum, “Policy on Senior Mentors,” April 1, 2010, states that an
HQE may be paid up to the amount authorized for the Executive Schedule Level II, which in
2010 was $179,700 ($86.10 per hour). This amount was equivalent to a salary authorized for
3- and 4-star flag and general officers on active duty.

Conflict of Interest Requirements. According to USJFCOM officials, some senior mentors did
not convert to HQEs because potential conflicts of interest could limit an HQE’s employment
opportunities in the private sector. The Secretary of Defense memorandum states that HQEs
cannot participate in an official capacity in any particular matter in which they have a financial
conflict of interest. It also states that HQEs who served more than 60 days in a 365-day period
would be subject to a 1-year cooling-off period that would restrict them from representing clients
and other entities to DoD on matters pending at the Department.

COMPLIANCE WITH PUBLIC DISCLOSURE REQUIREMENTS

As of February 28, 2011, 11 senior mentors converted to HQEs, 4 from USMC and 7 from
USJFCOM. Seven of the 11 senior mentors were not required to file a financial disclosure report
because they subsequently resigned from their positions before the filing deadline. The
remaining four senior mentors, three from the USMC and one from JFCOM, filed public
financial disclosure reports in accordance with the November 12, 2010, guidance. As of
February 28, 2011, the Navy, USSOCOM, and USSTRATCOM did not have any senior mentors
that converted to HQEs; therefore, there were no financial disclosure reports to review.

ARMY AND AIR FORCE AUDIT AGENCY AUDITS

Both the Army Audit Agency (AAA) and the Air Force Audit Agency (AFAA) conducted audits
of their Department’s implementation of DoD’s senior mentor policies.

Army Audit Agency. The AAA audited the Army process for implementing the Secretary of
Defense’s policies on senior mentors. The announced objective was to determine whether the
Senior Leader Program and the participants were in compliance with DoD and Army guidance.
AAA Report No. A-2011-0155-FFF, “Senior Leader Mentor Program,” July 8, 2011, stated the
Army auditors found reasonable assurance that the Army complied with DoD and Army
guidance related to senior mentors. The AAA auditors also found that the Army discontinued
using contracted senior mentors for warfighting exercises and modified or terminated contracts
in accordance with Army Directive 2010-03, “Senior Mentors,” July 16, 2010. In addition, the

                                                5

conversion and hiring process for senior mentors as HQEs for the senior mentor program and its
participants complied with applicable DoD and Army guidance.

Air Force Audit Agency. The AFAA conducted the audit to determine whether Air Force
officials established and implemented an effective program to transition senior mentors to HQEs.
The announced objectives were to determine whether Air Force personnel developed adequate
procedures to implement DoD HQE program policies and guidance for senior mentors and
effectively executed HQE program procedures for senior mentors. Report No. F2012-0001-
FC1000, “Transition of Contract Senior Mentors to Highly Qualified Experts,” October 17,
2011, stated that Air Force officials established an effective program to transition senior mentors
to HQEs, but program implementation required improvement. Specifically, Air Force senior
leadership established adequate procedures to implement DoD HQE policies and guidance for
senior mentors. However, Air Force personnel could improve their program by developing
performance plans for each HQE senior mentor and by improving execution of senior mentor
financial disclosure requirements. The report also stated that as of March 29, 2011, the Air
Force employed six HQE senior mentors.

REVIEW OF INTERNAL CONTROLS

DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” 

July 29, 2010, requires DoD organizations to implement a system of internal controls that 

provides reasonable assurance about the effectiveness of the controls. We did not identify any 

internal control weaknesses, as defined by DoD Instruction 5010.40, regarding the Navy, USMC, 

USJFCOM, USSOCOM, and USSTRATCOM implementation and compliance with DoD 

policies for converting senior mentors to HQEs. 


AUDIT STANDARDS

We conducted this audit from September 2010 through October 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

SCOPE AND METHODOLOGY

We performed this audit in response to a mandate in the explanatory statement of the Fiscal Year
2010 Defense Appropriations Act. In July 2010, the DoD IG provided the House Appropriations
Committee, Subcommittee on Defense, the number of senior mentors for FY 2010.

For this audit, we determined the status of the Secretary of Defense senior mentor policies as of
February 28, 2011. We used the data we collected in June 2010 to select the DoD organizations
that we reviewed. Specifically, we reviewed the conversion of senior mentors to HQEs at the
Navy, USMC, USJFCOM, USSOCOM, and USSTRATCOM.



                                                 6

We did not review the conversion of senior mentors to HQEs at the Departments of the Army
and Air Force because the AAA and AFAA announced audits with similar audit objectives. We
coordinated our approach with AAA and AFAA. On the basis of the July 2010 data, we
reviewed 194 of 355 (55 percent) of the reported senior mentors for FY 2010.

To answer our objective, we obtained and reviewed DoD policies on senior mentors. We
conducted interviews at the Navy, USMC, USJFCOM, USSOCOM, and USSTRATCOM to
obtain an understanding of how they implemented DoD policies on senior mentors and the status
of their implementation at the time of our audit. We also requested the number of senior mentors
that converted to HQEs. We reviewed the hiring packages for those senior mentors that
converted to HQEs. Specifically, we reviewed the position descriptions, requests for personnel
action, HQE justification forms, resumes of appointees, and financial disclosure reports.

In addition, we reviewed a nonstatistical sample of FY 2010 contracts at USSOCOM and
contracts at the USMC, USJFCOM, and USSTRATCOM that these organizations identified as
having senior mentor services. We reviewed contracts that provided overall support to the
organization and contracts with senior mentors for specific services. Specifically, we reviewed
contracts, task orders, contract modifications, subcontracts, and invoices.

We reviewed the following contracts, subcontracts, contract modifications, and task orders.

      USMC: 7 contracts and 3 subcontracts
      USJFCOM: 6 subcontracts and 40 task orders
      USSOCOM: 5 contracts and 20 task orders
      USSTRATCOM: 4 contracts and 113 modifications

USMC had subcontracts through a prime contractor, where the senior mentor work was a small
part of a large task order that did not give much detail on senior mentor responsibilities. For the
subcontracts, we requested and reviewed invoices to determine the extent of the senior mentors’
work. We also reviewed contracts specifically for senior mentors, which gave details on senior
mentor responsibilities. For the contracts, we ensured that unapproved senior mentors were not
working after September 30, 2010 (the date of the approved extension). If a senior mentor
resigned, we reviewed the contract to ensure that it ceased and funds were deobligated.

USJFCOM had subcontracts through a prime contractor, where the senior mentor work was a
small part of a large task order that did not give much detail on senior mentor responsibilities.
For the subcontracts, we reviewed invoices to determine the extent of the senior mentors’ work.
However, the invoices did not give sufficient detail. Therefore, we requested and received a
certification signed by responsible USJFCOM contracting officer representatives asserting that
senior mentors were no longer working under these USJFCOM contracts.

USSOCOM and USSTRATCOM had contracts that provided overall support to their
organizations; therefore, we did not review the entire contract. These contracts included a
variety of services and deliverables, and the requirement for senior mentor services was a small
piece of the overall contract. Therefore, we requested and reviewed task orders that had


                                                 7

 performance work statements requiring senior mentor tasks and had retired flag officers or 

 retired senior civilian officials wor king on the contract. 


 We did not review Navy contracts because ofthe number and location of the contracts In
 addition, they were similar to USJFCOM contracts, which did not give sufficient detail.
 Therefore, we determined that a review of these contracts would not be conclusive However,
 we requested and received certifications signed by the responsible Navy contracting officers that
 senior mentors were not working under contract

 USE OF COMPUTER-PROCESSED DATA

 We did not use computer -pr ocessed data to perform this audit.

 USE OF TECHNICAL ASSISTANCE

 The DoD Oftice ofInspector General Technical Analysis and Coordination Cell assisted in 

 reviewing USSOCOM contract files 


PRIOR AUDIT COVERAGE

Dur ing the last 5 year s, the AAA and AFAA have each issued a report on the senior mentor
program AAA issued Report No . A-2011-0155-FFF, "Senior Leader Mentor Program," July 8,
2011. Unrestricted Army reports can be accessed over the Internet at https://www.aaa.army.mil
AFAA issued Report No . F2012-0001-FCIOOO, "Transition of Contract Senior Mentors to
Highly Qualified Experts," October 17,2011 Unrestricted Air Force reports can be accessed
over the Internet fiummil domains by those with Common Access Cards at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?F ilter=OO-AD-O 1-41

You can obtain information about the Department of Defense Office ofInspector General fium
DoD Directive 5106 01, "Inspector General of the Department of Defense," April 13, 2006,
change I, September 25, 2006; DoD Instruction 7600 . 02, "Audit Policies," April 27, 2007; and
DoD Instruction 70503, "Access to Records and Information by the Inspector General,
Department of Defense," April 24, 2000 Our Web site address is www.dodig.mil

We appreciate the courtesies extended to the staff !fyou have any questions, please contact me
at (703) 601-5868 (DSN 329-5868)


                                            ()-t··                 1
                                            V 0, (;~v iff / '/ Ov'vYtv
                                                                       J11     //
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Financial Management and Reporting

Attachments:
As stated


                                                8

         Number of Senior Mentors by DoD 

         Organization for Fiscal Year 2010 


                      DoD Organization                         FY 2010
        Army                                                      90
        Navy                                                     109
        Air Force                                                39
        USMC                                                     15
        U.S. Joint Forces Command*                                53
        U.S. Special Operations Command                          17
        U.S. Northern Command                                     7
        U.S. Strategic Command                                     0
        Defense Agencies                                         10
        Joint Service Schools                                     15
          Total                                                  355
*
 Effective February 9, 2011, the Secretary of Defense approved the disestablishment
plan for the U.S. Joint Forces Command by August 31, 2011, with the transition of
personnel to be completed by March 2012.




                                                                               Attachment 1
                                                                                 Page 1 of 1
          DoD Senior Mentor Policy and Related Guidance
The Deputy Secretary of Defense issued the memorandum, “Implementation Guidance on
Senior Mentor Policy,” July 8, 2010, which requires highly qualified experts (HQEs) to file a
confidential financial disclosure form. The memorandum also states that senior mentors
appointed as HQEs are to file the OGE-450, “Confidential Financial Disclosure Report,”
instead of the public report (SF-278), based on specific guidance received from the Office of
Government Ethics (OGE). The memorandum further provides that

          OGE has determined that, with respect to the DoD-unique HQE appointment, it is
          appropriate to look not at an individual HQE’s actual pay, but at the lowest pay in the
          HQE range of pay when deciding whether the public or the confidential report must be
          filed. The HQE pay range begins at the GS-15, Step 1 level. Therefore, OGE has
          concluded that an HQE . . . is to file the confidential financial disclosure report
          (OGE 450).

In addition, the memorandum defines the following terms.

Other Military Officer. As a general matter, this term is limited to retired 0-6s. Those 0-6
mentors whose level of expertise is not high enough to warrant HQE appointment may be hired
at less cost to the Government as a Government employee, but they must also file a
nondisclosure agreement and a financial disclosure report.

Senior Retired Civilian Official. The term means a retired member of the SES or equivalent
from the Executive Branch, including former presidential appointees confirmed with the advice
and consent of the Senate, noncareer SES, and former U.S. ambassadors and senior Foreign
Service officers.

Senior Military Officers, Staffs, and Students. The category generally means military
officers, staffs, and students at grade 0-7 and above, or civilian equivalent.

Warfighting Courses. These courses are meant to cover instruction that has, as its primary
purpose, the preparation of general or flag officers for the challenges and requirements of
command or senior staff positions in a combat zone. It has an operational, as opposed to purely
academic or theoretical, focus. The Joint Flag Officer Warfighting Course is an example that is
covered by the policy. It is designed to teach future task force commanders and senior staff
members the challenges and requirements of joint warfighting.

Operational Planning. This planning includes only operational planning exercises where actual
mentoring can occur. Budget planning advice, regional history white papers, political briefings,
or strategic assessments are not considered operational planning.




                                                                                                    Attachment 2
                                                                                                      Page 1 of 2
ATTRACTING HIGHLY QUALIFIED EXPERTS

Section 9903, title 5, United States Code (5 U.S.C. § 9903), part 3, provides for the Secretary of
Defense to establish a program for DoD to seek and hire HQEs to provide advice and mentoring
services to high-ranking military members. Further, 5 U.S.C. § 9903 limits HQE pay to SES
level 4; limits additional payments to HQEs; set a 5-year service limit, which can be extended to
6; and limits the number of DoD HQEs to a maximum of 2,500 at any given time.

EXECUTIVE BRANCH FINANCIAL DISCLOSURE, QUALIFIED TRUSTS, AND
CERTIFICATES OF DIVESTITURE

Title 5, Code of Federal Regulations, Section 2634, “Executive Branch Financial Disclosure,
Qualified Trusts, and Certificates of Divestiture,” provides procedures and requirements for
financial disclosure and for the certification and use of qualified blind and diversified trusts.
The rules in this regulation oversee both public and confidential financial disclosure systems.
Specifically, section 2634.605 requires all financial disclosure reports to be reviewed within
60 days from the date of filing and certified by signature and date.




                                                                                       Attachment 2
                                                                                         Page 2 of 2
